FR833282333 CRATE AND BARREL AND/OR CB2 CREDIT CARD
TC PLCC PDF WF3064203B
3/2021

SYNCHRONY BANK
SECTION I: RATES AND FEES TABLE
CRATE AND BARREL AND/OR CB2 CREDIT CARD ACCOUNT AGREEMENT
PRICING INFORMATION
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

The APR for purchases is the prime rate plus 23.49%.
This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest

Your due date is at least 23 days after the close of each billing cycle. We will not charge
you any interest if you pay your entire balance by the due date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.00.

Fees
Penalty Fees
• Late Payment

Up to $40.

• Returned Payment

$29

How We Will Calculate Your Balance: We use a method called “daily balance.” See your credit card account agreement
below for more details.

1

SECTION II: RATES, FEES AND PAYMENT INFORMATION
CRATE AND BARREL AND/OR CB2 CREDIT CARD ACCOUNT AGREEMENT
How Interest is Calculated
Your Interest Rate

The APR for purchases is the prime rate plus 23.49%. We use a daily rate to calculate the interest on the balance
on your account each day. The daily rate for purchases is the APR times 1/365. As of April 1, 2020, the daily
rate for purchases was .07327% (APR 26.74%). Interest will be imposed in amounts or at rates not in excess of
those permitted by applicable law.
Daily Rates May Vary. The APR and the daily rate on your account vary with the market based on the
prime rate. The prime rate for a billing cycle is the highest bank prime loan rate published in The Wall Street
Journal in its Money Rates section on the last business day of the calendar month preceding the first day
of the billing cycle.
If the prime rate increases, the daily rate and APR will increase. As a result, interest, your total minimum
payment and the number of payments it would take you to pay off your account balance may increase. We
apply any change in rates because of a prime rate change to your entire account balance. A change in the
prime rate will take effect on the first day of the first billing cycle after the change. We may select a new interest
rate index if the prime rate is not available.

When We Charge Interest

We charge interest on your purchases from the date you make the purchase until you pay the purchase in full.
See exceptions below.
• We will not charge you interest during a billing cycle on any purchases if:
1. You had no balance at the start of the billing cycle; OR
2. You had a balance at the start of the billing cycle and you paid that balance in full by the due date in
that billing cycle.
• We will credit, as of the start of the billing cycle, any payment you make by the due date that we allocate
to purchases if:
1. You had no balance at the start of the previous billing cycle; OR
2. You had a balance at the start of the previous billing cycle and you paid that balance in full by the due
date in the previous billing cycle.

How We Calculate Interest

We figure the interest charge on your account separately for each balance type. We do this by applying the
daily rate to the daily balance for each day in the billing cycle. A separate daily balance is calculated for the
following balance types, as applicable: purchases and balances subject to different interest rates, plans or
special promotions. See below for how this works.
1. How to get the daily balance: We take the starting balance each day, add any new charges and fees,
and subtract any payments or credits. This gives us the daily balance. We apply fees to balance types
as follows:
(a) late payment fees or returned payment fees are treated as new purchases; and
(b) debt cancellation fees are added proportionately to each balance.
2. How to get the daily interest amount: We multiply each daily balance by the daily rate that applies.
3. How to get the starting balance for the next day: We add the daily interest amount in step 2 to the daily
balance from step 1.
4. How to get the interest charge for the billing cycle: We add all the daily interest amounts that were
charged during the billing cycle.
We charge a minimum of $2.00 of interest in any billing cycle in which you owe interest. This charge is added
proportionately to each balance type.

How Fees Work
Late Payment Fee

We will charge this fee if we do not receive the total minimum payment due on your account by 5 p.m. (ET) on
the due date. This fee is equal to:
1. $29, if you have paid your total minimum payment due by the due date in each of the prior six billing cycles.
OR
2. $40, if you have failed to pay your total minimum payment due by the due date in any one or more of
the prior six billing cycles.
The late payment fee will not be more than the total minimum payment that was due.

Returned Payment Fee

We will charge this fee if any check, other instrument, or electronic payment authorization you provide us in
payment on your account, is not honored, returned unpaid or cannot be processed for any reason. This fee is
equal to $29. The returned payment fee will not be more than the amount permitted by applicable law.

2

Minimum Payment Calculation
Your total minimum payment is calculated as follows.
The greater of:
1. $29, or $40 (which includes any past due amounts) if you have failed to pay the total minimum payment due by the due date in any one or more
of the prior six billing cycles.
OR
2. The sum of:
(a) Any past due amounts; PLUS
(b) 1% of your new balance shown on your billing statement (excluding any balance in connection with a special promotional purchase with a unique
payment calculation); PLUS
(c) Any late payment fees charged in the current billing cycle; PLUS
(d) All interest charged in the current billing cycle; PLUS
(e) Any payment due in connection with a special promotional purchase with a unique payment calculation.
We round up to the next highest whole dollar in figuring your total minimum payment. Your total minimum payment will never be more than your new balance.
Payments required in connection with a special promotional purchase with a unique payment calculation will not be increased to, but may be included in, the
$29 or $40 minimum amount otherwise due on your account.
Special Promotional Financing Offer Information
At times, we may offer you special financing promotions for certain transactions (“special promotions”). The terms of this Agreement apply to any special
promotion. However, any special promotional terms that are different than the terms in this Agreement will be explained on promotional advertising or other
disclosures provided to you. Below is a description of certain special promotions that may be offered:
• No Interest if Paid in Full Within 6 Months
• No Interest if Paid in Full Within 12 Months

For each promotion, if the promotional balance is not paid in full within the promotional period,
interest will be imposed from the date of purchase at the variable Purchase APR that applies
to your account when the promotional purchase is made.

• No Interest if Paid in Full Within 18 Months

At the time your account is opened, the variable Purchase APR is 26.74%.

• No Interest if Paid in Full Within 24 Months

Your Purchase APR will vary with the market based on the prime rate.

When you make a qualifying purchase under one of these promotions, no interest will be assessed on the purchase if you pay the following (the “promotional
balance”) in full within the applicable promotional period: (1) the promotional purchase amount, and (2) any related optional credit insurance/debt cancellation
charges. If you do not, interest will be assessed on the promotional balance from the date of the purchase. Minimum monthly payments are required. Regular
account terms apply to non-promotional purchases and, after promotion ends, to promotional purchases. Offers are subject to credit approval. These promotional
offers may not be available at all times for all purchases. Please see any special promotion advertising or other disclosures provided to you for the full terms of any
special promotion offered.

SECTION III: STANDARD PROVISIONS
CRATE AND BARREL AND/OR CB2 CREDIT CARD ACCOUNT AGREEMENT
ABOUT THE CREDIT CARD ACCOUNT AGREEMENT
This Agreement. This is an Agreement between you and Synchrony Bank, 170 Election Road, Suite 125, Draper, UT 84020, for your credit card account
shown above. By opening or using your account, you agree to the terms of the entire Agreement. The entire Agreement includes the four sections of this
document and the application you submitted to us in connection with the account. These documents replace any other agreement relating to your account
that you or we made earlier or at the same time.
Parties To This Agreement. This Agreement applies to each accountholder approved on the account and each of you is responsible for paying the
full amount due, no matter which one uses the account. We may treat each of you as one accountholder and may refer to each of you as “you” or “your.”
Synchrony Bank may be referred to as “we,” “us” or “our.”
Changes To This Agreement. We may change, add or delete terms of this Agreement, including interest rates, fees and charges.
Special Promotions. The terms of this Agreement apply to any special promotion. However, any special promotional terms that are different than the terms
in this Agreement will be explained on promotional advertising or other disclosures provided to you.

HOW TO USE YOUR ACCOUNT/CARD
Use Of Your Account. You may use your account only for lawful personal, family or household purposes. You may use your account for purchases
from Euromarket Designs, Inc. d/b/a Crate and Barrel and CB2 (“Crate and Barrel and CB2”) stores and online locations.
You Promise To Pay. You promise to pay us for all amounts owed to us under this Agreement.
Your Responsibility. Each accountholder will receive a card. You may not allow anyone else to use your account. If you do, or if you ask us to send a card
to someone else, you will be responsible for paying for all charges resulting from their transactions.
Purchase Limits. To prevent fraud, we may limit the number or dollar amount of purchases you can make in any particular amount of time. We also may
decline any particular charge on your account for any reason.
Credit Limit. You will be assigned a credit limit on your account that we may increase or decrease from time to time. If we approve a transaction that makes
you go over your credit limit, we do not give up any rights under this Agreement and we do not treat it as an increase in your credit limit.

3

HOW AND WHEN TO MAKE PAYMENTS
When Payments Are Due. You must pay at least the total minimum payment due on your account by 5 p.m. (ET) on the due date of each billing cycle.
Payments received after 5 p.m. (ET) will be credited as of the next day. You may at any time pay, in whole or in part, the total unpaid balance without any
additional charge for prepayment. If you have a balance subject to interest, earlier payment may reduce the amount of interest you will pay. We may delay
making credit available on your account in the amount of your payment even though we will credit your payment when we receive it.
Payment Options. You can pay by mail or online. We may allow you to make payments over the phone but we will charge you a fee to make expedited
phone payments. Your payment must be made in U.S. dollars by physical or electronic check, money order or a similar instrument from a bank located in
the United States.
How To Make A Payment. You must follow the instructions for making payments provided on your billing statement. If you do not, credit of your payment
may be delayed up to five days. Your billing statement also explains how information on your check is used.
Payment Allocation. We will apply the required total minimum payment to balances on your account using any method we choose. Any payment you make
in excess of the required total minimum payment will be applied to higher APR balances before lower APR balances. Applicable law may require or permit us
to apply excess payments in a different manner in certain situations, such as when your account has a certain type of special promotion.

INFORMATION ABOUT YOU
Using and Sharing Your Information. When you applied for an account, you gave us and Crate and Barrel information about yourself that we could
share with each other. Crate and Barrel will use the information in connection with the credit program and for things like creating and updating its records and
offering you special benefits. More information about how we use and share information is set forth in the privacy policy for your account.
Address/Phone Change. You represent that any phone number that you provide to us belongs to you and/or that you are authorized to provide that
number. You also agree to tell us right away if you change your address or any phone number.
Consent To Communications. You consent to us, as well as any other owner or servicer of your account, contacting you through any channel of
communication and for any purpose, as permitted by applicable law. For informational, servicing, fraud, or collection related communications, you agree that
we may use the phone numbers that you provide to us to contact your cellular phone or wireless device with text messages, artificial or prerecorded voice
calls, and calls made by an automatic telephone dialing system. Text frequency may vary and may be recurring. This consent applies even if you are charged
for the call under your plan. You are responsible for any charges that may be billed to you by your communications carrier when we contact you. Message
and data rates may vary. We and any carrier are not liable for delayed or undelivered messages. If you have questions, please call the number on the back
of your card.
Telephone Monitoring. For quality control, you allow us to listen to and/or record telephone calls between you and us.

IMPORTANT INFORMATION ABOUT YOUR ACCOUNT
Closing Your Account. You may close your account at any time by sending a letter to the address shown on your billing statement or calling customer
service. We may close your account at any time, for any reason. If your account is closed, you must stop using it. You must still pay the full amount you owe
and this Agreement will remain in effect until you do.
Collection Costs. If we ask an attorney who is not our salaried employee to collect your account, we may charge you our collection costs. These include
court costs and reasonable attorneys’ fees.
Credit Bureau Reporting. We may report information about your account to credit bureaus. Late payments, missed payments, or other defaults on your
account may be shown in your credit report. Tell us if you think we reported wrong information about you to a credit bureau. Write to us at P.O. Box 965024,
Orlando, FL 32896-5024. Tell us what information is wrong and why you think it is wrong. If you have a copy of the credit report that includes the wrong
information, send us a copy.
Default. You are in default if you make a late payment, do not follow any other term of this Agreement or become bankrupt or insolvent. If you default or
upon your death, we may (a) request payment of the full amount due right away, (b) take legal action to collect the amounts owed, and/or (c) take any other
action allowed.
Disputed Amounts. The billing rights summary in section IV of this Agreement describes what to do if you think there is a mistake on your bill.
If you send us correspondence about a disputed amount or payment, you must send it to the address for billing inquiries. We do not give up
any rights under this Agreement if we accept a payment marked “payment in full” or given with any other conditions or limitations.
Unauthorized Use. If your card is lost, stolen or used without your consent, call us immediately at 1-866-258-0114. You will not be liable for unauthorized
use on your account, but you will be responsible for all use by anyone you give your card to or allow to use your account.

IMPORTANT INFORMATION ABOUT THIS AGREEMENT
Assignment. We may sell, assign or transfer any or all of our rights or duties under this Agreement or your account, including our rights to payments. We
do not have to give you prior notice of such action. You may not sell, assign or transfer any of your rights or duties under this Agreement or your account.
Enforceability. If any part of this Agreement is found to be void or unenforceable, all other parts of this Agreement will still apply.
Governing Law. Except as provided in the Resolving a Dispute with Arbitration section, this Agreement and your account are governed by federal law and,
to the extent state law applies, the laws of Utah without regard to its conflicts of law principles. This Agreement has been accepted by us in Utah.
Waiver. We may give up some of our rights under this Agreement. If we give up any of our rights in one situation, we do not give up the same right in
another situation.

RESOLVING A DISPUTE WITH ARBITRATION
PLEASE READ THIS SECTION CAREFULLY. IF YOU DO NOT REJECT IT, THIS SECTION WILL APPLY TO YOUR ACCOUNT, AND MOST
DISPUTES BETWEEN YOU AND US WILL BE SUBJECT TO INDIVIDUAL ARBITRATION. THIS MEANS THAT: (1) NEITHER A COURT NOR A
JURY WILL RESOLVE ANY SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING;
(3) LESS INFORMATION WILL BE AVAILABLE; AND (4) APPEAL RIGHTS WILL BE LIMITED.
1. CLAIMS AND PARTIES. If either you or we make a demand for arbitration, you and we must arbitrate any dispute or claim between you (including
any other user of your account), and us (including our parents, affiliates, agents, employees, officers, and assignees) that directly or indirectly arises
from or relates to your account, your account Agreement or our relationship, except as noted below. In addition, Crate and Barrel and/or any assignee,
agent, or service provider of ours that collects amounts due on your account are intended beneficiaries of this Arbitration section and may enforce it
in full (notwithstanding any state law to the contrary).
4

2. This Arbitration section broadly covers claims based upon contract, tort, consumer rights, fraud and other intentional torts, negligence, constitution,
statute, regulation, ordinance, common law and equity and claims for money damages and injunctive or declaratory relief, even if they arose before
this section took effect. You may not sell, assign or transfer a claim.
3. Examples of claims subject to arbitration are disputes about an account transaction, fees, charges or interest, the events leading up to the Agreement
(such as any disclosures, advertisements, promotions or oral or written statements, warranties or representations made by us), an application for or
denial of credit, any product or service provided by us or third parties in connection with the Agreement, credit reporting, benefit programs related to
your account including any reward program, the collection of amounts due by our assignees, service providers, or agents and the manner of collection.
4. However, we will not require you to arbitrate any individual case in small claims court or your state’s equivalent court, so long as it remains an individual
case in that court. Also, even if all parties have opted to litigate a claim in court, you or we may elect arbitration with respect to any claim made by a new
party or any claim later asserted by a party in any related or unrelated lawsuit, including modifying an individual claim to assert a class, representative or
multi-party claim. Arbitration may be requested at any time, even where there is a pending lawsuit, unless a trial has begun, or a final judgment entered.
5. Only a court will decide disputes about the validity, enforceability, coverage or scope of this Arbitration section or any part thereof. However, any
dispute that concerns the validity or enforceability of the Agreement as a whole is for the arbitrator to decide.
6. NO CLASS ACTIONS. IF EITHER YOU OR WE ELECT TO ARBITRATE A CLAIM, NEITHER YOU NOR WE WILL HAVE THE RIGHT (A) TO PARTICIPATE
IN A CLASS ACTION, PRIVATE ATTORNEY GENERAL ACTION OR OTHER REPRESENTATIVE ACTION IN COURT OR IN ARBITRATION, EITHER AS
A CLASS REPRESENTATIVE OR CLASS MEMBER, OR (B) TO JOIN OR CONSOLIDATE CLAIMS WITH CLAIMS OF ANY OTHER PERSONS EXCEPT
ACCOUNTHOLDERS ON YOUR ACCOUNT. THUS, YOU MAY NOT BRING CLAIMS AGAINST US ON BEHALF OF ANY ACCOUNTHOLDER WHO
IS NOT AN ACCOUNTHOLDER ON YOUR ACCOUNT, AND YOU AGREE THAT ONLY ACCOUNTHOLDERS ON YOUR ACCOUNT MAY BE JOINED
IN A SINGLE ARBITRATION WITH ANY CLAIM YOU HAVE.
7. PROCEDURES. The party who wants to arbitrate must notify the other party in writing. This notice can be given after the beginning of a lawsuit or in
papers filed in the lawsuit. Otherwise, your notice must be sent to Synchrony Bank, Legal Operation, P.O. Box 29110, Shawnee Mission, KS 662015320, ATTN: ARBITRATION DEMAND. The party seeking arbitration must select either the American Arbitration Association (AAA), 120 Broadway,
Floor 21, New York, NY 10271, www.adr.org, or JAMS, 620 Eighth Avenue, 34th Floor, New York, NY 10018, www.jamsadr.com, to administer the
arbitration. If neither administrator can handle the dispute, a court with jurisdiction will appoint an arbitrator.
8. The arbitration administrator will appoint the arbitrator and will tell the parties what to do next. The arbitrator must be a lawyer with at least ten years
of legal experience. The arbitrator must apply the same law, consistent with the Federal Arbitration Act (FAA), that would apply to an individual action
in court, but may use different procedural rules. The arbitrator will apply the same statutes of limitation and privileges that a court would apply if the
matter were pending in court.
9. The arbitrator may award any damages or other relief or remedies that would apply under applicable law to an individual action brought in court,
including, without limitation, punitive damages (governed by the Constitutional standards employed by the courts) and injunctive, equitable and
declaratory relief (but only in favor of the individual party seeking relief and only to the extent necessary to provide relief warranted by that party’s
individual claim). The parties will bear the fees and costs of their attorneys, witnesses and experts. However, the arbitrator will have the authority to
award fees and costs of attorneys, witnesses and experts to the extent permitted by the Agreement, the administrator’s rules or applicable law.
10. The arbitration will take place by phone or at a location reasonably convenient to you. If you ask, we will pay all the fees the administrator or arbitrator
charges if you cannot obtain a waiver of fees from the administrator and are acting in good faith. We will always pay arbitration costs required by the
administrator’s rules or that are necessary for this Arbitration section to be enforced.
11. GOVERNING LAW. This Arbitration section is governed by the FAA. Utah law shall apply to the extent state law is relevant under the FAA, unless
otherwise stated herein. The arbitrator’s award will be final and binding, except for any appeal right under the FAA. Any court with jurisdiction may
enter judgment upon the arbitrator’s award. The arbitration award and any judgment confirming it will apply only to the specific case and cannot be
used in any other case except to enforce the award.
12. SURVIVAL. This Arbitration section shall survive the repayment of all amounts owed, the termination, cancellation or suspension of the Agreement
or your account or credit privileges, any legal proceeding, and any bankruptcy by you, to the extent consistent with applicable bankruptcy law. If this
Arbitration section conflicts with the applicable arbitration rules or the other provisions of the Agreement, this Arbitration section shall govern.
13. SEVERABILITY. If any portion of this Arbitration section is held to be invalid or unenforceable, the remaining portions shall nevertheless remain in force
with the following two exceptions. First, if a determination is made that the “No Class Actions” provision is unenforceable, and that determination is
not reversed on appeal, then this Arbitration section shall be void in its entirety. Second, if a court determines that a public injunctive relief claim may
proceed notwithstanding the “No Class Actions” provision, and that determination is not reversed on appeal, then the public injunctive relief claim will
be decided by a court, and any individual claims will be arbitrated. The parties will ask the court to stay the public injunctive relief claim until the other
claims have been finally concluded.
14. HOW TO REJECT ARBITRATION. You may reject this Arbitration section. If you do that, a court will resolve any dispute or claim. To reject this
section, send us a notice within 45 days after you open your account or we first provided you with your right to reject this section. The notice must
include your name, address, account number, and personal signature, and must be mailed to Synchrony Bank, P.O. Box 965012, Orlando, FL 328965012. This is the only way you can reject this section. Rejecting this Arbitration section will not affect any other provision of the Agreement. It will also
not affect any prior arbitration agreement or dispute resolution provision between you and us, which will remain in full force and effect. If you don’t
reject this Arbitration section, it will be effective as of the date of the Agreement and will supersede any prior arbitration agreement between you and
us that would otherwise be applicable.

SECTION IV: OTHER IMPORTANT INFORMATION
CRATE AND BARREL AND/OR CB2 CREDIT CARD ACCOUNT AGREEMENT
This section of the agreement includes state notices, billing rights summary and rewards terms (if applicable) and is not required to be provided as part of the
credit card agreement posted online or provided to the CFPB.

FR833282333 CRATE AND BARREL AND/OR CB2 CREDIT CARD
TC PLCC PDF WF3064203B
3/2021
5

